           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        DACOTAH FOUNDATION,
         AN ORGANIZATIONAL
      REPRESENTATIVE PAYEE FOR
 THE SOCIAL SECURITY ADMINISTRATION


    March 2012       A-06-10-20174




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      March 9, 2012                                                            Refer To:

To:        Sean Brune
           Regional Commissioner
            Denver

From:      Inspector General

Subject:   Dacotah Foundation, an Organizational Representative Payee for the Social Security
           Administration (A-06-10-20174)


           OBJECTIVE
           Our objectives were to determine whether the Dacotah Foundation (1) had effective
           controls over the receipt and disbursement of Social Security benefits, (2) used and
           accounted for Social Security benefits in accordance with the Social Security
           Administration’s (SSA) policies and procedures, and (3) adequately protected
           personally identifiable information of the beneficiaries in its care.

           BACKGROUND
           SSA provides benefits to the most vulnerable members of society—the young, elderly,
           and disabled. Congress granted SSA the authority to appoint representative payees for
           those beneficiaries determined incapable of managing or directing the management of
           their benefits. 1 Representative payees receive and manage payments on behalf of
           these beneficiaries. 2 Given the vulnerability of the beneficiaries and the risk a
           representative payee may misuse beneficiaries’ funds, it is imperative that SSA have
           appropriate safeguards to ensure representative payees meet their responsibilities. We
           provide a summary of representative payee responsibilities in Appendix B.

           Dacotah Foundation is a fee-for-service organizational payee that serves approximately
           264 Social Security beneficiaries and Supplemental Security Income recipients. 3 SSA

           1
            Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii)(I); 42 U.S.C. §§ 405(j)(1)(A) and
           1383(a)(2)(A)(ii)(I).
           2
               20 C.F.R. §§ 404.2001 and 416.601.
           3
             This included the period January 2009 through December 2010. We use the term “beneficiary”
           throughout the report in reference to both beneficiaries and recipients.
Page 2 – Sean Brune


requires that non-governmental, fee-for-service payees be sufficiently bonded to collect
a fee. 4 Bonding constitutes a bond or insurance contract that protects the
representative payee and SSA from financial loss caused by actions or inaction of
employees or officers of the organization. In addition to serving as a representative
payee, Dacotah Foundation operates 11 residential facilities and additional community-
based service programs.

In Calendar Year 2010, SSA’s staff became aware of incidents in which Dacotah
Foundation transferred beneficiary funds into its business operating account. The
Denver Region referred the matter to our Office of Investigations and requested this
audit. We provide the scope and methodology of our review in Appendix C.

RESULTS OF REVIEW
With the significant exception noted below, Dacotah Foundation had effective controls
over the receipt and disbursement of Social Security benefits and used and accounted
for Social Security benefits in accordance with SSA’s policies and procedures. Dacotah
Foundation maintained documentation supporting receipts and expenditures for
transactions reviewed and timely and accurately recorded transactions in its accounting
records. Also, Dacotah Foundation adequately secured beneficiaries’ personal and
financial information.

However, from January 2006 through April 2010, the Dacotah Foundation improperly
transferred $789,500 from beneficiary accounts into its business operating account. A
Dacotah Foundation official stated it temporarily borrowed from beneficiary accounts to
cover cash flow shortages in the business operating account. Although we confirmed
that Dacotah Foundation eventually returned all funds to the appropriate beneficiary
accounts, these transactions were a misuse of beneficiary funds. 5

We also determined that Dacotah Foundation did not maintain adequate bonding to
protect SSA and the beneficiaries in its care against potential financial harm caused by
its officers or employees.

MISUSE OF BENEFICIARY FUNDS

From January 2006 through April 2010, 6 Dacotah Foundation improperly transferred
$789,500 from 43 beneficiary accounts into its business operating account. During this
time, Dacotah Foundation made 177 separate transfers from beneficiary accounts in

4
    SSA, POMS, GN 00506.105A (October 24, 2011).
5
 SSA, Guide for Organizational Representative Payees, pages 30 and 33
http://www.ssa.gov/payee/NewGuide/toc.htm. Misuse occurs when an organizational representative
payee uses any portion of a beneficiary’s funds for something other than the use and benefit of the
beneficiary. Further, organizational representative payees may not mix beneficiary’s funds with the
organization’s funds.
6
    The last transfer we identified was made on April 8, 2010.
Page 3 – Sean Brune


amounts ranging from $1,000 to $10,000. The frequency and volume of these
transactions steadily increased until SSA became aware of the transactions and notified
our Office of Investigations.


                      Cash Transfers from Beneficiary Bank Accounts
                        to Dacotah Foundation Operating Account
                                     January 2006-April 2010
               $350,000
                                                                           $313,000
               $300,000                                        $289,000


               $250,000

               $200,000

               $150,000
                                                  $106,000
               $100,000
                                       $57,000
                $50,000
                           $24,500

                     $0
                            2006        2007        2008        2009        2010




A Dacotah Foundation official stated she initiated the fund transfers to cover short-term
cash flow shortages in the Dacotah Foundation’s business operating account. The
Dacotah Foundation used the borrowed funds to cover operating expenses until it could
obtain operating funds from non-SSA sources. The official stated she did not realize
transferring funds from beneficiary accounts was improper as long as the funds were
returned to the beneficiary accounts.7 However, we determined the official did not
record the fund transfers in beneficiary accounting records or, when applicable, on
monthly bank statement reconciliations. Also, the official did not inform the beneficiaries
of these transfers. 8

Representative payees are responsible for keeping any benefits received on a
beneficiary’s behalf separate from organizational funds. 9 Misuse of beneficiary funds
occurs when a representative payee uses beneficiary funds for purposes other than the
7
  We verified that the Dacotah Foundation returned all borrowed funds to beneficiary accounts in periods
ranging from the same day to up to 43 days.
8
 The official stated she did not believe beneficiaries needed to know about the transfers as long as they
continued to have money available to them.
9
    20 C.F.R. §§ 404.2035(b) and 416.635(b).
Page 4 – Sean Brune


beneficiary’s use and benefit. 10 In this case, Dacotah Foundation misused beneficiary
funds each time it transferred balances from beneficiary accounts into the business
operating account. In April 2010, the Office of Investigations informed the Dacotah
Foundation that bank transfers from beneficiary accounts should stop immediately. The
official agreed and stated the Dacotah Foundation would make other arrangements to
address cash flow issues.

During the audit period, the Dacotah Foundation charged each SSA beneficiary in its
care a $30 monthly management fee. However, organizational representative payees
may not collect a fee from an individual for any month the Commissioner of Social
Security determines the organization misused all or part of an individual’s benefits.11
For the months in which the 177 funds transfers occurred, the Dacotah Foundation
charged the 43 beneficiaries $4,740 in fees.

INADEQUATE BOND COVERAGE

Dacotah Foundation did not maintain adequate bond coverage to protect beneficiaries
from financial loss caused by its officers or employees. Fee-for-service payees are
required to maintain bond coverage in amounts sufficient to compensate beneficiaries
for any loss of SSA benefits and any conserved funds on hand. 12 The minimum amount
of bonding or insurance coverage must equal the average monthly amount of social
security payments received by the organization plus the amount of the beneficiaries’
conserved funds.13 As of December 2010, Dacotah Foundation’s bond requirement
was approximately $555,000. 14 However, Dacotah Foundation maintained only
$200,000 of bond coverage. This exposed SSA and the beneficiaries in Dacotah
Foundation’s care to potential losses of approximately $355,000.

CONCLUSION AND RECOMMENDATIONS
From January 2006 through April 2010, Dacotah Foundation improperly transferred
$789,500 from beneficiary accounts into its business operating account. The payee
temporarily borrowed the funds from beneficiary accounts to cover short-term cash flow
shortages in its business operating account. Although we confirmed that Dacotah
Foundation eventually returned all borrowed funds to the appropriate beneficiary
accounts, these transactions constituted misuse of beneficiary funds. When a
representative payee or its employees misuses SSA funds, the Agency will reevaluate

10
     Social Security Act, §§ 205(j)(9) and 1631(a)(2)(A)(iv); SSA, POMS, GN 00604.001 (10/24/2011).
11
     42 U.S.C. §§ 205(j)(4)(A)(i) and 1631(a)(2)(D)(i).
12
     SSA, POMS, GN 00506.105.C.5.
13
     20 C.F.R. §§ 404.2040a(a)(2) and 416.640a(a)(2).
14
  During 2010, Dacotah Foundation received $184,275 in average monthly SSA payments. As of
December 2010, Dacotah Foundation was maintaining beneficiary conserved fund balances totaling
approximately $370,600.
Page 5 – Sean Brune


the payee’s suitability to remain a payee. 15 SSA can allow the payee to continue
serving as payee if there is good reason to believe the payee will use benefits properly
in the future. 16

We also determined that Dacotah Foundation did not maintain sufficient bond coverage
to protect beneficiaries from financial loss caused by its officers or employees. As a
result, we recommend that SSA:

1. Make an official determination of whether benefit misuse occurred. If so, SSA
   should seek recovery of $4,740 in monthly management fees Dacotah Foundation
   charged affected beneficiaries during periods of misuse.

2. Reevaluate Dacotah Foundation’s suitability to remain an SSA payee.

3. Work with Dacotah Foundation or a replacement payee to ensure maintenance of
   required bonding.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.

Dacotah Foundation stated it was committed to continual service delivery improvement
and wished to continue its role as a representative payee. Dacotah Foundation further
stated it would work to assure SSA of its commitment to comply with representative
payee program guidelines and safeguard the funds entrusted to it. Dacotah Foundation
also provided documentation indicating that effective February 21, 2012, Dacotah
Foundation had increased its employee theft bond coverage from $200,000 to
$560,000. See Appendix D for the full text of the Agency’s comments and Appendix E
for the full text of Dacotah Foundation’s comments.




                                                 Patrick P. O’Carroll, Jr.




15
     SSA, Guide for Organizational Representative Payees, supra note 5 at page 31.
16
     SSA, POMS, GN00604.045B.1 (10/14/2011).
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – Representative Payee Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
C.F.R.     Code of Federal Regulations
OIG        Office of the Inspector General
POMS       Program Operations Manual System
SSA        Social Security Administration
U.S.C.     United States Code
                                                                             Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve its beneficiaries’ best
interests.1 The responsibilities include the following.

•   Determine beneficiaries’ current needs for day-to-day living and use their payments
    to meet those needs.

•   Conserve and invest benefits not needed to meet their current needs.

•   Maintain accounting records of how their benefits are received and used.

•   Report events to the Social Security Administration (SSA) that may affect their
    entitlement or benefit payment amount.

•   Report any changes in circumstances that would affect their performance as a
    representative payee.

•   Provide SSA an annual Representative Payee Report (Form SSA-6234) to account
    for benefits spent and invested.

•   Return any payments to SSA for which a beneficiary is not entitled.

•   Return conserved funds to SSA when no longer the representative payee for a
    beneficiary.

•   Ensure Supplemental Security Income recipients do not exceed their resource limits,
    be aware of any other income they may have, and monitor their conserved funds.




1
 20 C.F.R. §§ 404.2035 and 416.635. See also SSA’s Guide for Organizational Representative Payees,
pages 16 and 48 http://www.ssa.gov/payee/NewGuide/toc.htm.
                                                                       Appendix C

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System, and other
    instructions pertaining to representative payees.

•   Interviewed Dacotah Foundation personnel.

•   Reviewed the Dacotah Foundation’s internal controls over the receipt and
    disbursement of Social Security benefits.

•   Reviewed bank reconciliations and traced general ledger entries to bank statements.

•   Compared and reconciled the payee’s list of SSA beneficiaries in Dacotah
    Foundation’s care to a list obtained from SSA’s Representative Payee System.

•   Selected a sample of 50 beneficiaries in the representative payee’s care during the
    audit period and performed the following tests.

     Compared and reconciled benefit amounts received according to the Dacotah
      Foundation’s records to benefit amounts paid according to SSA’s records.

     Traced recorded expenses for the randomly selected months of July 2009 and
      August 2010 to available source documents.

•   Interviewed five beneficiaries in Fargo and five beneficiaries in Bismarck, North
    Dakota, to determine whether their basic needs were being met.

•   Observed beneficiary living conditions in residential facilities operated by Dacotah
    Foundation.

•   Reviewed the most recent Representative Payee Reports (Forms SSA-6234) for
    10 beneficiaries to determine whether Dacotah Foundation properly reported benefit
    use to SSA.




                                            C-1
We performed the audit from December 2010 through December 2011 at the SSA
Regional Office in Dallas, Texas, and Dacotah Foundation office locations in Fargo and
Bismarck, North Dakota. We did not test the general or application controls of SSA’s
systems that generated electronic data used for this audit. Instead, we traced selected
transactions to source documents and performed other validation tests. As a result, we
found the data to be sufficiently reliable to meet our audit objectives. We conducted our
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                          C-2
                                                                      Appendix D

Agency Comments
Sent: Monday, February 27, 2012
Subject: Denver Region Comments: Signed Draft Report (A-06-10-20174)


Patrick,

The Denver Region agrees with all three OIG recommendations found in the draft
report, “Dacotah Foundation, an Organizational Representative for the Social Security
Administration”. We offer the following comments for each recommendation:

   1. Make an official determination of whether benefit misuse occurred. If so,
      SSA should seek recovery of $4,740 in monthly management fees Dacotah
      Foundation charged affected beneficiaries during periods of misuse. We
      will undertake full misuse development and make an official determination,
      examining all factors, including results of prior reviews and field office feedback
      from beneficiaries.
   2. Re-evaluate Dacotah Foundation’s suitability to remain an SSA payee.
      Bismarck, ND District Office management will schedule an onsite meeting with
      the Dacotah Foundation to discuss requirements and review current practices.
      Appropriate SSA components in the field, area, and regional offices will meet to
      discuss the results of the onsite visit and will make a suitability determination.
   3. Work with Dacotah Foundation or a replacement payee to ensure
      maintenance of required bonding. On July 27, 2011, we certified that the
      organization possesses sufficient and current bonding with an expiration date of
      June 20, 2012. If, after our suitability determination, the Dacotah Foundation
      remains as representative payee, we will again certify bonding as part of the
      annual fee-for-service requirements in July 2012.

Staff may direct questions to Greg Roy, Director, Center for Program Support.

Sean P. Brune
Denver Regional Commissioner
Social Security Administration
                                                                     Appendix E

Representative Payee Comments
Sent: Monday, February 27, 2012
Subject: audit response


Mr. Gunia,

We received a copy of the draft report for Dacotah Foundation from Patrick P. O’Carroll
with a request to submit our comments to you. Attached is a copy of our response and
the endorsement page for the commercial crime coverage showing the increase in
coverage. Please let me know if anything else is needed. Thank you for the
opportunity to comment.

Doreen Eichele
Chief Operations Officer




                                          E-1
Based on conversations with our local Social Security Administrative staff, our original
understanding of our role as an agency representative payee was that funds received
on behalf of the beneficiary are the responsibility of our agency to manage and assure
the availability for the needs of the beneficiary. We understood that any loss of funds
was the responsibility of our agency. Based on that understanding, the funds entrusted
with our agency on behalf of the beneficiary have been used for the benefit of the
individual. When informed by the Office of Investigations that our transfer of funds was
not an acceptable practice, our agency immediately complied and provided
documentation that all funds transferred were accounted for and we have ceased the
practice of fund transfers. Our agency regrets this misunderstanding of our role and
affirms that we will safe guard and keep the funds entrusted to us on behalf of the
beneficiary. Dacotah Foundation has the necessary and effective controls in place to
assure the safekeeping and accounting of those funds in accordance with SSA’s
policies and procedures as confirmed by the audit conducted by the Social Security
Administration.

Dacotah Foundation has provided this service for over 25 years. We serve a very
challenging population and have demonstrated our ability to provide other services that
augment the role of the representative payee to benefit the individual served. Our staff
is also very committed to their role in serving the needs of this population. Our agency
has established a sound working relationship with the staff and administration of the
local Social Security offices to meet the particular needs of the beneficiaries. We
communicate readily, provide information and consult with the local offices so that all
entities involved can better serve the beneficiary. We also work very closely with the
beneficiary’s assigned mental health case manager to assure they have adequate
housing, food and clothing to meet their basic needs. We notify them of concerns as
they arise so the beneficiary’s situation does not become detrimental to their mental
health. It is our goal and commitment to continually improve in our delivery of service
and we would wish to continue our role as a representative payee. We are willing to
work with the Social Security Administration in any way to assure them of our
commitment to comply with the guidelines for the representative payee program and
safeguard the funds entrusted to our agency.

Documentation of employee theft coverage has been provided to the local Social
Security Administration Offices annually upon renewal of our insurance policy. This
documentation is send directly to the local Social Security Administrative offices. Our
agency was not aware that our bond coverage did not meet the minimum amount
required by the Social Security Administration. We have since increased our coverage
to $560,000 as documented by the copy of the insurance endorsement provided. We
will reevaluate the coverage annually to make sure our coverage meets the average
monthly amount of social security benefits received by our organization each June.

Dacotah Foundation does charge a nominal fee for our services of $30/month per client
or 10% of the benefits received. We also continue to maintain services for individuals
who have suspended benefits and lost their source of income due to incarceration and
hospitalization without a monthly fee. We try to maintain a lower fee so the beneficiary


                                          E-2
has more funds available for their needs. While recovery of the $4740 month fee will be
a hardship, we are prepared to comply with the SSA determination and return the funds
in whatever manner determined appropriate.




                                         E-3
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Neha Smith, Audit Manager, Denver Audit Office

Acknowledgments

In addition to those named above:

   Warren Wasson, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-06-10-20174.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
